No.:________________

IN THE SUPREME COURT OF THE UNITED STATES
___________
Joy McShan Edwards, Petitioner,
v.
United States of America, Respondent.
___________

On Petition for a Writ of Certiorari to the United States Court of Appeals for the Sixth Circuit

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
Jeremy B. Cooper
Counsel of Record
Blackwater Law PLLC
6 Loop St. #1
Aspinwall, PA 15215
(304) 376-0037
jeremy@blackwaterlawpllc.com

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 1

No. 20-3767

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOY MCSHAN EDWARDS,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

(2 of 7)

)
)
)
)
)
)
)
)
)

Dec 10, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, Circuit Judge.

Joy McShan Edwards, a federal supervisee represented by counsel, appeals the district
court’s judgment denying her motion to vacate, set aside, or correct her sentence under 28 U.S.C.
§ 2255. Edwards moves the court for a certificate of appealability (“COA”).
A confidential informant made controlled purchases of narcotics from Edwards’s two
brothers and testified against them in the federal criminal trial that ensued. Her brothers were each
convicted of multiple offenses and received lengthy prison sentences. Several months after the
conclusion of that trial, Edwards reposted pictures of the confidential informant on her Facebook
page and posted or reposted a number of comments in which she and other Facebook users called
the informant a “snitch” and a “snitch ass bitch,” among other things.
Edwards’s Facebook commentary about the informant prompted the government to charge
her with one count of retaliating against a witness, in violation of 18 U.S.C. § 1513(e).
Section 1513(e) calls for up to ten years of imprisonment for any person who “knowingly, with
the intent to retaliate, takes any action harmful to any person . . . for providing to a law enforcement
officer any truthful information relating to the commission or possible commission of any Federal
offense.” Edwards moved to dismiss the indictment, arguing that § 1513(e) violates the First
Amendment because it is vague and overboard on its face. In her overbreadth challenge, Edward

Appendix 1

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 2

(3 of 7)

argued that § 1513(e) is unconstitutional because it prohibits any kind of speech and conduct about
witnesses and informants, including speech that is protected by the First Amendment. The district
court concluded that § 1513(e) is neither vague nor overbroad. As to Edwards’s facial challenge
to the statute, the district court found that § 1513(e) does not violate the First Amendment because
it contains a scienter element that “criminalizes speech only upon proof that the defendant intended
to retaliate against a witness.” United States v. Edwards, 291 F. Supp. 3d 828, 832 (S.D. Ohio
2017). The district court therefore denied the motion to dismiss.
The case proceeded to a bench trial, after which the district court entered written findings
of fact and conclusions of law convicting Edwards. The district court sentenced Edwards to three
months of imprisonment, three months of confinement in a halfway house, three months of home
confinement, and three years of supervised release.
In her direct appeal, Edwards’s appellate attorney raised the following assignments of error
in the table of contents of her brief: (1) the evidence was insufficient for the district court to
convict her of violating § 1513(e); (2) the district court erred in denying her motion to dismiss
because § 1513(e) is vague and overbroad; and (3) the government selectively prosecuted her. We
rejected Edwards’s sufficiency, selective-prosecution, and vagueness claims on the merits. But
we concluded that Edwards had abandoned her overbreadth claim because she failed to brief that
issue. See United States v. Edwards, 783 F. App’x 540, 545 n.3 (6th Cir. 2019). We thus affirmed
Edwards’s conviction.
Edwards then filed a pro se § 2255 motion in the district court, claiming that her appellate
attorney performed ineffectively by abandoning her overbreadth challenge to § 1513(e). A
magistrate judge issued a report that the recommended that the district court deny this claim.
Although the magistrate judge characterized Edwards’s overbreadth claim as being “significant
and arguable,” he found that Edwards’s attorney had not performed ineffectively because Edwards
had failed to show that this claim was clearly stronger than the claims that her attorney did raise.
The magistrate judge also concluded that Edwards was not prejudiced by counsel’s omission
because she failed to demonstrate that her overbreadth claim had a reasonable probability of
success. The district court overruled Edwards’s objections to the report and recommendation,
concluding that a threat to retaliate is not speech that is protected by the First Amendment and

Appendix 2

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 3

(4 of 7)

therefore that her attorney did not perform ineffectively by not raising a meritless overbreadth
claim in her appeal. The district court therefore denied Edwards’s motion to vacate. The court
declined to issue a COA.
Edwards filed a timely appeal of the district court’s order and retained new counsel, who
filed a COA application on her behalf. Relying principally on NAACP v. Claiborne Hardware
Co., 458 U.S. 886 (1982), and FEC v. Wisconsin Right to Life, Inc., 551 U.S. 449 (2007), Edwards
contends that speech is protected by the First Amendment regardless of the speaker’s intent (i.e.,
whether or not the speaker intended to retaliate). And she argues that § 1513(e) is overbroad
because it criminalizes a substantial amount of truthful and therefore protected speech about
cooperating witnesses, which she claims is all that her comments about the informant involved.
Edwards concedes, however, that “the statute could be constitutionally applied in the context of
unprotected speech, such as incitement, true threats, defamation, or speech integral to criminal
conduct.” She believes, however, that since we found that the claims that her appellate counsel
did raise were meritless, her overbreadth claim, which the district court and the magistrate judge
both agreed was “arguable,” must have been clearly stronger than the other claims. Despite
Edwards’s criticism of her appellate counsel, she admits that no court of appeals has considered
whether § 1513(e) is unconstitutionally overbroad.
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard, the applicant must
demonstrate that “jurists of reason could disagree with the district court’s resolution of [her]
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
In order to establish ineffective assistance of counsel, the petitioner must establish both (1)
that her trial “counsel’s representation fell below an objective standard of reasonableness” and (2)
that “there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland v. Washington, 466 U.S. 668, 688, 694 (1984).
“A reasonable probability is a probability sufficient to undermine confidence in the outcome.” Id.
at 694. An attorney’s performance is strongly presumed to be effective. Id. at 690. To prevail on
an ineffective-assistance claim in the appellate context, the petitioner must demonstrate that the

Appendix 3

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 4

(5 of 7)

issue omitted by counsel “was clearly stronger than the issues that counsel did present,” Webb v.
Mitchell, 586 F.3d 383, 399 (6th Cir. 2009) (quoting Smith v. Robbins, 528 U.S. 259, 288 (2000)),
and a reasonable probability that she would have prevailed but for counsel’s failure to raise the
issue, Moore v. Mitchell, 708 F.3d 760, 776 (6th Cir. 2013). Under this standard, reasonable jurists
would not debate the district court’s resolution of Edward’s ineffective-assistance claim.
Proving that § 1513(e) is unconstitutionally overbroad would have been an exceedingly
difficult hurdle for Edwards’s appellate counsel to clear. Because the overbreadth doctrine is
“strong medicine,” it is employed “sparingly and only as a last resort.” Broadrick v. Oklahoma,
413 U.S. 601, 613 (1973). Consequently, to prevail on an overbreadth claim, Edwards’s counsel
would have to have shown that § 1513(e) “reaches a substantial number of impermissible
applications.” New York v. Ferber, 458 U.S. 747, 771 (1982). Moreover, a statute’s overbreadth
must be “judged in relation to [its] plainly legitimate sweep.” Broadrick, 413 U.S. at 615.
But here, Edwards admits that § 1513(a) can be applied legitimately to a number of types
of unprotected speech, including true threats, incitements, defamatory statements, and statements
integral to criminal conduct. On the other hand, other than her own comments, which she claims
were nothing more than truthful statements about the confidential informant, Edwards has not
identified any other protected speech that would be criminalized by § 1513(e).1 And it is not
reasonable to believe, for instance, that § 1513(e) criminalizes comments that are generally critical
of the government’s use of confidential informants or which generally cast doubt on the character
and reliability of confidential informants. See City Council of Los Angeles v. Taxpayers for
Vincent, 466 U.S. 789, 801 (1984) (“[T]here must be a realistic danger that the statute itself will

1

Moreover, in making this argument, Edwards is really claiming that § 1513(e) is
unconstitutional as applied to her. But the district court rejected Edwards’s as-applied claim in
denying her motion to dismiss the indictment, see Edwards, 291 F. Supp. 3d at 832-34, and she
did not raise it on direct appeal or in the context of the ineffective-assistance claim in her § 2255
motion. Consequently, Edwards has procedurally defaulted any substantive as-applied claim by
not raising it on direct appeal, see Elzy v. United States, 205 F.3d 882, 884 (6th Cir. 2000), and
she forfeited appellate review of that issue in the context of her ineffective-assistance claim by not
raising it in the district court. See Harris v. Klare, 902 F.3d 630, 636 (6th Cir. 2018). And in any
event, on direct appeal, we concluded that the evidence supported the district court’s verdict that
Edwards’s conduct did not involve protected advocacy about confidential informants. See
Edwards, 783 F. App’x at 543-44.

Appendix 4

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 5

(6 of 7)

significantly compromise recognized First Amendment protections of parties not before the Court
for it to be facially challenged on overbreadth grounds.”). Additionally, the fact that § 1513(e) is
restricted to statements made with intent to retaliate weighs heavily against a conclusion that the
statute is overbroad.

See Edwards, 783 F. App’x at 545 (“[T]he scienter requirements of

‘knowingly’ and ‘with intent to retaliate’ dramatically narrow the universe of possible offending
activity . . . .”); Edwards, 291 F. Supp. 3d at 832. Edwards’s suggestion that § 1513(e) is so clearly
unconstitutional that her attorney would not have needed any specific cases on point in order to
prevail on her overbreadth claim is contradicted by her concession that the statute has
constitutional applications to speech. So even at this late date Edwards has not made a substantial
case that § 1513(e) is overbroad.
Claiborne Hardware and Wisconsin Right to Life do not assist Edwards’s overbreadth
claim, nor do they support her contention that her retaliatory comments about the confidential
informant are protected by the First Amendment.
To be sure, as Edwards notes in her COA application, the Supreme Court stated in
Wisconsin Right to Life that “a speaker’s motivation is entirely irrelevant to the question of
constitutional protection.”
ECONOMIC POWER,

551 U.S. at 468 (quoting M. REDISH, MONEY TALKS: SPEECH,

AND THE

VALUES

OF

DEMOCRACY 91 (2001)). But Edwards quotes that

statement out of context. Wisconsin Right to Life involved an as-applied challenge to a federal
statute that prohibits corporations from spending money on political advertisements that target a
candidate for federal office within thirty days of an election. The issue presented in the case was
whether an issue-advocacy advertisement was the functional equivalent of an advertisement that
advocated for the election or defeat of candidate for political office and therefore was subject to
the statute. The Court rejected an intent-based test for making that determination because such a
test “would chill core political speech” and “could lead to the bizarre result that identical ads aired
at the same time could be protected speech for one speaker, while leading to criminal penalties for
another.”

Id.

So in other words, the Court did not want to criminalize issue-advocacy

advertisements (which are core political speech) even if the intent of the speaker in creating the
advertisement was to influence an election for political office. The Court did not hold that the

Appendix 5

Case: 20-3767

Document: 7-2

Filed: 12/10/2020

Page: 6

(7 of 7)

speaker’s motivation is irrelevant in all First Amendment cases. Wisconsin Right to Life simply
does not apply to Edwards’s case.
And Claiborne Hardware is no help to Edwards either. There, black civil rights activists
organized a long-term boycott of white merchants in Claiborne County, Mississippi, in order to
protest racial discrimination. The merchants sued the organizers of the boycott to recover money
damages for the loss of business they sustained because of the boycott. The Supreme Court held
that the protestors’ non-violent political activities were protected by the First Amendment even
though the secondary effect of the boycott was to cause economic harm to the merchants. See
Claiborne Hardware, 458 U.S. at 907-15. But as the district court pointed out, Claiborne
Hardware was not a retaliation case, and, in contrast to Edwards, the protestors in that case were
engaged in speech that “has always rested on the highest rung of the hierarchy of First Amendment
values.” 458 U.S. at 913 (quoting Carey v. Brown, 447 U.S. 455, 467 (1980)); cf. United States v.
Velasquez, 772 F.2d 1348, 1357 (7th Cir. 1985) (holding that threats to retaliate cannot be
considered social or political commentary or discourse).
In summary, no reasonable jurist could conclude that an overbreadth challenge to § 1513(e)
would have had a reasonable probability of success on appeal. As a result, reasonable jurists would
not debate the district court’s resolution of Edwards’s ineffective-assistance claim.
Accordingly, the court DENIES Edwards’s COA application.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Appendix 6

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 1 of 6 PAGEID #: 429

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
UNITED STATES OF AMERICA,
Plaintiff,

-

vs

:

Case No. 2:17-cr-170
Also 2:19-cv-5340
District Judge Edmund A. Sargus, Jr.
Magistrate Judge Michael R. Merz

-

JOY McSHAN EDWARDS,
Defendant.

:

DECISION AND ORDER

This is an action on a Motion to Vacate under 28 U.S.C. § 2255 brought pro se by
Defendant Joy McShan Edwards to obtain relief from her conviction in this Court on one count of
retaliation against a witness. Magistrate Judge Michael R. Merz, to whom this case was referred,
filed a Report and Recommendations recommending that the Motion to Vacate be denied (ECF
No. 72). Defendant has now filed Objections to the Report (ECF No. 73).
As required by Fed.R.Civ.P. 72(b), the Court has reviewed de novo each portion of the
Report to which specific objection has been made and rules on the Objections herein.
As the Report notes, Defendant was indicted on one count of violating 18 U.S.C. § 1513(c)
by taking harmful action against a cooperating witness for providing truthful information to a law
enforcement officer relating to the commission of a federal criminal offense. (ECF No. 12.) The
case was tried to the bench and Defendant was found guilty in a written decision a month after the

Appendix 7

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 2 of 6 PAGEID #: 430

trial. United States v. Edwards, 2017 U.S. Dist. LEXIS 201968 (S.D. Ohio Dec. 7, 2017)(copy at
ECF No. 40)(“Edwards I”). Defendant appealed, but the Sixth Circuit affirmed. United States v.
Edwards, 783 Fed. Appx. 540 (6th Cir. Aug. 16, 2019)(unpublished; copy at ECF No.
62)(“Edwards II”. In her Motion to Vacate, Defendant pleads one claim of ineffective assistance
of appellate counsel:
Appellate Counsel failed to raise a 1st Amendment/overbreadth
challenge to the witness retaliation statute under which Defendant
was convicted. This issue was amply preserved in the trial court, and
was included in the subject headings of the brief; however no
argument in the appellate briefs was made in support of the
overbreadth challenge that prior trial counsel had made. The Sixth
Circuit explicitly noted in its opinion that the appeal failed to brief
the 1st Amendment/overbreadth issue. This issue had merit and a
reasonable likelihood of modifying the outcome on appeal; thus
Defendant was prejudiced by its omission. Ms. Edwards
incorporates the argument in support of her 1st
Amendment/overbreadth challenge as set forth in Document #10 of
this matter.
(Motion, ECF No. 64, PageID 397.
Applying Strickland v. Washington, 466 U.S. 668 (1984), in the context of ineffective
assistance of appellate counsel claims, the Report concluded that Defendant had not shown this
omitted First Amendment/overbreadth claim was stronger than claims actually raised on appeal or
that it would have been successful. The Magistrate Judge therefore recommended the Motion to
Vacate be denied and that Defendant be denied a certificate of appealability (Report, ECF No. 72,
PageID 423-24).

Appendix 8

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 3 of 6 PAGEID #: 431

Analysis

In her Objections, Defendant cites a number of federal cases that have considered the
statute under which she was convicted. 18 U.S.C. § 1513(c). Most of them were cited to the Court
when it considered her motion to dismiss.
After citing those cases, she admits “Because the courts have never substantively
considered this issue, there is no controlling case law to cite.” (Objections, ECF No. 73, PageID
426. She continues: “However, the plain language of the act so obviously contradicts basic
constitutional principles that an appeal would almost certainly succeed. The statute does not
require any proof of speech. It does not require proof of a true threat, of defamatory content, or
incitement.” Id.
As the Court construed the statute in denying Ms. Edwards’ facial challenge, the
Government was required to prove “beyond a reasonable doubt that (1) Defendant knowingly took
an action with intent to retaliate against CI 1; (2) Defendant harmed CI 1; and (3) her retaliation
was induced by CI 1's testimony against her brothers.” Edwards I at *7. At trial the Government
proved to the Court’s satisfaction. a jury having been waived, that Ms. Edwards took several
actions by way of posting material on Facebook, that she intended to harm CI 1 in doing so by
exposing him to obloquy by disclosing his role as a government witness against her brothers, and
that her actions harmed CI 1 in the way that she intended (Decision and Order, ECF No. 40).
The Court agrees with Defendant that 18 U.S.C. § 1513(c) does not require proof of speech,
although Ms. Edwards’ Facebook posts constitute speech for First Amendment purposes. The
Court also agrees the statute does not require proof of a “true threat,” “defamatory content or
incitement.” But those constructions of the statute do not render it unconstitutional. As the Court

Appendix 9

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 4 of 6 PAGEID #: 432

has previously noted, the Supreme Court held the burning of a cross with intent to intimidate could
be criminalized. Edwards I at *4, citing Virginia v. Black, 538 U.S. 343, 358, 123 S. Ct. 1536,
155 L. Ed. 2d 535 (2003).
Defendant relies on NAACP v. Claiborne Hardware Co., 458 U.S. 886 (1982), which held
that speech intended to cause economic harm to others by way of an economic boycott to
discourage racially discriminatory practices was protected speech. In that case the Supreme Court
overturned a judgment of the Supreme Court of Mississippi which held all participants in an
economic boycott liable for violent actions taken by some participants. The purpose of the
boycotters was not in any way to retaliate against the boycotted merchants for providing assistance
to federal law enforcement.
Defendant relies on FEC v. Wisconsin Right to Life, Inc., 551 U.S. 449 (2007), for the
proposition that “under well accepted First Amendment doctrine, a speaker’s motivation is entirely
irrelevant to the question of constitutional protection.” Id. at 468. The Court was quoting Martin
Redish, Money Talks: Speech, Economic Power, and the Values of Democracy 91 (2001), on the
danger of using the ad purchaser’s intent to draw a line between protected and unprotected
campaign ads under the Bipartisan Campaign Reform Act of 2002. Ultimately the Court found
the ads by Wisconsin Right to Life were constitutionally protected and the BCRA as applied to
them unconstitutional.
Neither case supports the proposition that Congress may not constitutionally punish
persons for retaliating against witnesses in federal criminal prosecutions.
The Supreme Court has held that
imprecise laws can be attacked on their face under two different
doctrines. First, the overbreadth doctrine permits the facial
invalidation of laws that inhibit the exercise of First Amendment
rights if the impermissible applications of the law are substantial

Appendix 10

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 5 of 6 PAGEID #: 433

when "judged in relation to the statute's plainly legitimate sweep."
Broadrick v. Oklahoma, 413 U.S. 601, 612-615, 37 L. Ed. 2d 830,
93 S. Ct. 2908 (1973). Second, even if an enactment does not reach
a substantial amount of constitutionally protected conduct, it may be
impermissibly vague because it fails to establish standards for the
police and public that are sufficient to guard against the arbitrary
deprivation of liberty interests. Kolender v. Lawson, 461 U.S. 352,
358, 75 L. Ed. 2d 903, 103 S. Ct. 1855 (1983).
City of Chicago v. Morales, 527 U.S. 421 (1999). Edwards’ attack is based on the overbreadth
doctrine, but she has not shown that 18 U.S.C. § 1513(c) reaches “a substantial amount of
constitutionally protected conduct.” In other words she has not shown or even suggested what
conduct that was intended to retaliate against a witness and actually had that effect would be
constitutionally protected.
Many acts which involve only speech can be criminalized: extortion, bribery, witness
intimidation, perjury. The fact that Defendant’s acts were speech acts does not bring them within
the protection of the First Amendment. To use the most famous example from First Amendment
jurisprudence, falsely crying “fire” in a crowded theater, though it involves only speech, is not
protected. Schenck v. United States, 249 U.S. 47 (1919)(Holmes, J.).
In sum, Defendant has not shown that her omitted issue on appeal – that 18 U.S.C. §
1513(c) is unconstitutionally overbroad – has any merit. Therefore it was not ineffective assistance
of appellate counsel to fail to raise that claim.
Defendant also objects to denial of a certificate of appealability. However, while the
question of whether the statute is constitutional under the First Amendment is itself arguable, the
Magistrate Judge’s conclusion that it would not have been any stronger than the issues actually
raised on appeal is not debatable among reasonable jurists – Edwards cites no jurist who holds the

Appendix 11

Case: 2:17-cr-00170-EAS-MRM Doc #: 74 Filed: 05/13/20 Page: 6 of 6 PAGEID #: 434

contrary view. She has therefore not met her burden of proving entitlement to a certificate of
appealability.

Conclusion

In accordance with the foregoing analysis, Magistrate Judge’s Report is ADOPTED and
Defendant’s Motion to Vacate is DENIED. Pursuant to Fed.R.Civ.P. 58, the Clerk shall enter a
separate judgment to that effect.
Because reasonable jurists would not disagree with this conclusion, Defendant is denied a
certificate of appealability and the Court certifies to the Sixth Circuit that any appeal would be
objectively frivolous and should not be permitted to proceed in forma pauperis.

May 13, 2020
s/Edmund A. Sargus, Jr.
United States District Judge

Appendix 12

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 1 of 6 PAGEID #: 419

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
UNITED STATES OF AMERICA,
Plaintiff,

-

vs

:

Case No. 2:17-cr-170
Also 2:19-cv-5340
District Judge Edmund A. Sargus, Jr.
Magistrate Judge Michael R. Merz

-

JOY McSHAN EDWARDS,
Defendant.

:

REPORT AND RECOMMENDATIONS

This is an action under 28 U.S.C. § 2255 brought pro se by Defendant Joy McShan
Edwards to obtain relief from her conviction in this Court on one count of retaliation against a
witness. The matter is ripe for decision on the Motion to Vacate (ECF No. 67), the Government’s
Response (ECF No. 69) and Defendant’s Reply (ECF No. 70).

Litigation History

Defendant was indicted August 3, 2017, and charged with one count of violating 18 U.S.C.
§ 1513(c) by taking harmful action against a cooperating witness for providing truthful information
to a law enforcement officer relating to the commission of a federal criminal offense. (ECF No.
12.) Defendant waived her right to a jury trial (ECF No. 35) and the case was tried to the bench

Appendix 13

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 2 of 6 PAGEID #: 420

on December 11, 2017 (Minute Entry, ECF No. 37). On January 17, 2018, the Court found
Defendant guilty (Opinion and Order, ECF No. 40). After considering a presentence investigation
report, the Court sentenced Defendant on May 25, 2018 (ECF No. 48). Defendant appealed to the
Sixth Circuit which affirmed her conviction. United States v. Edwards, 783 Fed. Appx. 540 (6th
Cir. Aug. 16, 2019)(unpublished; copy at ECF No. 62). Although she sought bail pending a
petition for certiorari (ECF No. 64), the Court has received no notice that such a petition was filed
and the time for doing so has now expired. Defendant filed her Motion to Vacate December 4,
2019, pleading one ground for relief, to wit, that she received ineffective assistance of appellate
counsel in that
Appellate Counsel failed to raise a 1st Amendment/overbreadth
challenge to the witness retaliation statute under which Defendant
was convicted. This issue was amply preserved in the trial court, and
was included in the subject headings of the brief; however no
argument in the appellate briefs was made in support of the
overbreadth challenge that prior trial counsel had made. The Sixth
Circuit explicitly noted in its opinion that the appeal failed to brief
the 1st Amendment/overbreadth issue. This issue had merit and a
reasonable likelihood of modifying the outcome on appeal; thus
Defendant was prejudiced by its omission. Ms. Edwards
incorporates the argument in support of her 1st
Amendment/overbreadth challenge as set forth in Document #10 of
this matter.
(Motion, ECF No. 64, PageID 397.

Analysis

In her Motion, Defendant relies on the argument made on her behalf by trial counsel to
show that the First Amendment/overbreadth argument had merit. That argument was essentially

Appendix 14

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 3 of 6 PAGEID #: 421

that he allegedly offending posts on Facebook were either truthful or expressions of her opinion
of the cooperating witness, D.B. (ECF No. 10; incorporated by reference in Motion to Dismiss the
Indictment, ECF No. 30). The Court read Defendant’s Motion as raising both a facial and an asapplied challenge to the statute (Opinion and Order, ECF No. 36, PageID 157). It found the statute
was not facially overbroad (Id. at PageID 160), but deferred ruling on the as-applied challenge
until factual development of context at trial. Id. at PageID 163. Defendant renewed her First
Amendment argument in her motion for judgment of acquittal at trial and the Court denied it. Id.
at PageID 174, relying on Virginia v. Black, 538 U.S. 343 (2003).
Defendant’s claim in her Motion to Vacate is that this issue should have been pursued on appeal
and indeed that it was ineffective assistance of appellate counsel to fail to do so. She cites no case law
in her Motion to show that the claim would have been successful if it had been raised. The
Government’s Answer notes this omission and cites controlling Supreme Court precedent to the effect
that effective appellate counsel need not raise every possible arguable claim (ECF No. 69, PageID 411,
citing Jones v. Barnes, 463 U.S. 745 (1983), and Coleman v. Mitchell, 268 F.3d 417, 430-31 (6th Cir.
2000).

In her Reply, Edwards notes that the Sixth Circuit, in the context of denying her void-forvagueness claim, found that the language of the statute “potentially sweeping.” Edwards, 783
Fed. Appx. at 545. However the court also wrote “Edwards abandoned her First Amendment
overbreadth claim on appeal. Nothing in this opinion should be construed to comment on whether
§ 1513(e) is overbroad or violative of the First Amendment. That issue was neither brought nor
briefed before us.” Id. at note 3. But the note explicitly disclaims any comment on a First
Amendment issue and certainly does not suggest such a claim would have been successful.
Edwards argues the issues actually briefed were not very strong because they were unavailing, but
that does not imply the First Amendment overbreadth claim would have been stronger.

Appendix 15

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 4 of 6 PAGEID #: 422

Edwards disagrees with the Government’s reliance on McFarland v. Yukins, 356 F. 3d 688,
699 (6th Cir.2004), for the proposition that there must be clear existing authority in support of an
omitted claim of error (Reply, ECF No. 70, PageID 415). McFarland does hold that failure to
raise an issue can amount to ineffective assistance if there is a reasonable probability that inclusion
of the issue would have changed the result of the appeal. McFarland, citing Greer v. Mitchell,
264 F.3d 663, 676 (6th Cir. 2001); Joshua v. Dewitt, 341 F.3d 430, 441 (6th Cir. 2003); Lucas v.
O’Dea, 179 F.3d 412, 419 (6th Cir. 1999); and Mapes v. Coyle, 171 F.3d 408, 427-29 (6th Cir.
1999). Counsel can be ineffective by failing to raise a “dead-bang winner,” defined as an issue
which is obvious from the trial record and which would have resulted in a reversal on appeal, even
if counsel raised other strong but unsuccessful claims. Mapes, supra, citing Banks v. Reynolds, 54
F. 3d 1508, 1515 n. 13 (10th Cir. 1995); see also Page v. United States, 884 F. 2d 300, 302 (7th Cir.
1989).
“In order to succeed on a claim of ineffective assistance of appellate counsel, a petitioner
must show errors so serious that counsel was scarcely functioning as counsel at all and that those
errors undermine the reliability of the defendant’s convictions.” McMeans v. Brigano, 228 F.3d
674(6th Cir. 2000), citing Strickland v. Washington, 466 U.S. 668 (1984), and Rust v. Zent, 17 F.3d
155, 161-62 (6th Cir. 1994). “Counsel’s performance is strongly presumed to be effective.”
McFarland, quoting Scott v. Mitchell, 209 F.3d 854, 880 (6th Cir. 2000)(citing Strickland). “To
prevail on a claim of ineffective assistance of appellate counsel, a petitioner must show that
appellate counsel ignored issues [which] are clearly stronger than those presented.” Webb v.
Mitchell, 586 F.3d 383, 399 (6th Cir. 2009); Smith v. Robbins, 528 U.S. 259, 288 (2000), quoting
Gray v. Greer, 800 F.2d 644, 646 (7th Cir. 1986).

Appendix 16

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 5 of 6 PAGEID #: 423

But Edwards cites no case authority from the Sixth Circuit or any other court to show that
her overbreadth claim was stronger than the claims actually raised or that are contrary to the
authority this Court relied on in denying her motions to dismiss and for acquittal. To put it a
different way, even if it was deficient performance to fail to raise and brief the overbreadth issue,
Edwards has not shown prejudice because she has not shown a reasonable probability that the
outcome would have been different. Yes, as this Court and the Sixth Circuit acknowledged, the
issue is significant and arguable, but that does not mean it would probably have succeeded.
An appellate attorney need not advance every argument, regardless of merit, urged by the
appellant. Jones at 751-752 (1983)("Experienced advocates since time beyond memory have
emphasized the importance of winnowing out weaker arguments on appeal and focusing on one
central issue if possible, or at most on a few key issues." Id. Effective appellate advocacy is rarely
characterized by presenting every non-frivolous argument which can be made. Joshua v. DeWitt,
341 F.3d 430, 441 (6th Cir. 2003). Williams v. Bagley, 380 F.3d 932, 971 (6th Cir. 2004), cert.
denied, 544 U.S. 1003 (2005); see Smith v. Murray, 477 U.S. 527 (1986). “Only when ignored
issues are clearly stronger than those presented will the presumption of effective assistance of
[appellate] counsel be overcome.” Dufresne v. Palmer, 876 F.3d 248 (6th Cir. 2017), quoting
Fautenberry v. Mitchell, 515 F.3d 614, 642 (6th Cir. 2008).
Edwards has simply not shown that the omitted issue is stronger than the issues raised and
argued.

Appendix 17

Case: 2:17-cr-00170-EAS-MRM Doc #: 72 Filed: 04/06/20 Page: 6 of 6 PAGEID #: 424

Conclusion

Based on the foregoing analysis, it is respectfully recommended that the Motion to Vacate
be denied.

Because reasonable jurists would not disagree with this conclusion, it is also

recommended that Petitioner be denied a certificate of appealability and that the Court certify to
the Sixth Circuit that any appeal would be objectively frivolous and should not be permitted to
proceed in forma pauperis.

April 4, 2020.
s/ Michael R. Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS
Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Because this document is being served by mail, three days are added under
Fed.R.Civ.P. 6. Such objections shall specify the portions of the Report objected to and shall be
accompanied by a memorandum of law in support of the objections. A party may respond to
another party’s objections within fourteen days after being served with a copy thereof. Failure to
make objections in accordance with this procedure may forfeit rights on appeal.

Appendix 18

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 1

(2 of 11)

NOT RECOMMENDED FOR PUBLICATION
File Name: 19a0428n.06
No. 18-3541

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
JOY EDWARDS,
Defendant-Appellant.

BEFORE:

FILED
Aug 16, 2019
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
THE
FOR
COURT
SOUTHERN DISTRICT OF
OHIO

BATCHELDER, ROGERS, and THAPAR, Circuit Judges.

ALICE M. BATCHELDER, Circuit Judge. Joy Edwards made numerous derogatory
posts on Facebook about a confidential informant who testified against her brothers during their
criminal trial. The Facebook posts revealed the informant’s identity and called him—among other
things—a “snitch.” Edwards was indicted on a single count of retaliating against a witness in
violation of 18 U.S.C § 1513(e). At a bench trial, the district court found that the informant
suffered harm as a result of these Facebook posts and that the posts were intended to retaliate
against the informant. Edwards was convicted and sentenced to short terms of prison and lesser
forms of confinement. Edwards appeals. We affirm.
I.
In 2015, D.B. agreed to work with law enforcement as a confidential informant against two
brothers in the town of Steubenville, Ohio. These two brothers, Fred and David McShan, were
suspected of running a drug-trafficking operation. D.B. wore audio and video surveillance

Appendix 19

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 2

(3 of 11)

equipment while performing controlled buys from the McShan brothers. As a result of D.B.’s
assistance, law enforcement indicted the McShan brothers on multiple charges, including
conspiracy to possess with intent to distribute heroin. D.B. also testified at the McShan brothers’
trial.
The trial took place in Columbus, Ohio, 150 miles from Steubenville. D.B. testified in an
open, public courtroom. A number of Steubenville residents attended the trial. During the trial,
United States Marshals had to remove several of the McShan brothers’ relatives and friends from
the courtroom for recording witness testimony and taking pictures of witnesses, including D.B.,
on the stand. A jury found both brothers guilty and the district court sentenced Fred to 288 months
in prison and David to 74 months in prison.
Several months after the trial, Steubenville residents began posting on the social-media
website Facebook pictures of D.B testifying at the trial. Among the people to do so was Joy
Edwards, a sister of the McShan brothers. Over the course of several days, some of her online
activity included:
•
•
•
•
•
•
•
•

Re-posting another user’s photo of D.B. on the witness stand and calling him a
“snitch” in the comments section
Commenting on her own post saying “f*** him,” “Look at that bitch ass snitch
lips! They are crack up and ashey white from running it so much! His bitch ass
needs some WD40!”
Re-posting another user’s doctored photo of D.B. holding a t-shirt with a police
badge on it
Re-posting another user’s photo of D.B. with the caption “stop snitching” over
it, to which Edwards added, “Snitch ass bitch”
Commenting on her own post in response to another user’s question about the
identity of D.B., saying, “This guy is snitching! He snitched on my brothers!
And lied about everything!”
Re-posting another user’s photo of D.B. with the caption “Snitching like a
bitch”
Re-posting another user’s picture featuring hands in police handcuffs with the
caption “Man up . . . Shut your mouth. Take the charge and don’t snitch.”
“Liked” numerous other users’ posts of similar material

Appendix 20

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 3

(4 of 11)

Edwards did not capture any photos of D.B. at the trial, nor did she create any of the images
herself. She primarily re-posted others’ images and added her own captions. Her Facebook page
was set to “Public,” meaning that any one of her more than 600 Facebook friends could share her
posts and anyone on Facebook could view them. These Facebook posts by Edwards and others
revealed and broadcast D.B.’s name, nickname, location, family members, and his cooperation
with law enforcement—in addition to generating numerous other derogatory comments by other
persons in the Steubenville area.
After the nearly week-long flurry of Facebook posts regarding D.B., the government
indicted Edwards on one count of retaliating against a witness in violation of 18 U.S.C. § 1513(e).
The government did not indict any other persons. Edwards moved to dismiss the indictment,
arguing that § 1513(e) violates the First Amendment, is unconstitutionally vague, and is
unconstitutionally overbroad. The district court denied the motion to dismiss, holding that §
1513(e) is consistent with the Supreme Court’s ruling in Virginia v. Black, 538 U.S. 343 (2003),
because it requires as an element of the crime “proof that the defendant intended to retaliate.”
Summarizing the order, the district court said, “[i]t is the scienter requirement of the statute that
renders it constitutional.”
Edwards waived her right to a trial by a jury. At the bench trial, the government called
three witnesses. U.S. Marshal Denzler testified about the process of investigating Edwards’
Facebook posts. DEA Special Agent Heufelder testified that law enforcement considers the label
“snitch” to be a threat to its informants. D.B. testified about how his life changed after the
Facebook posts, including his increased difficulty in seeing his children, decreased employment
opportunities in the area, and his fear for his safety and for the safety of his family. At the close
of the government’s arguments, Edwards did not present a defense, and instead orally moved for

Appendix 21

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 4

(5 of 11)

judgment of acquittal pursuant to Federal Rule of Criminal Procedure 29. The district court denied
the motion and found Edwards guilty under § 1513(e), sentencing her to three months in prison,
followed by three months in a halfway house, three months of home detention, and three years on
supervised release.
On appeal, Edwards makes three claims challenging her conviction. Edwards argues that,
(1) there was insufficient evidence to support her conviction; (2) § 1513(e) is unconstitutionally
vague; (3) she was selectively prosecuted by the government.
II.
A.
First, Edwards argues that there was insufficient evidence for her conviction and therefore
the district court erred in denying her Rule 29 motion. “Although we review the district court’s
denial of [a motion for judgment of acquittal] de novo, we must affirm its decision if the evidence,
viewed in the light most favorable to the government, would allow a rational trier of fact to find
the defendant guilty beyond a reasonable doubt.” United States v. Canan, 48 F.3d 954, 962 (6th
Cir. 1995). Section 1513(e) of the witness retaliation statute states:
Whoever knowingly, with the intent to retaliate, takes any action harmful to any
person, including interference with the lawful employment or livelihood of any
person, for providing to a law enforcement officer any truthful information relating
to the commission or possible commission of any Federal offense, shall be fined
under this title or imprisoned not more than 10 years, or both.
18 U.S.C. § 1513(e). Edwards concedes that she knowingly took an action and that D.B. has
suffered harm. However, Edwards complains that there was insufficient evidence to find beyond
a reasonable doubt that (a) she took the action with intent to retaliate, and that (b) her actions were
the cause of D.B.’s harm.

Appendix 22

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 5

(6 of 11)

Intent.1 Intent may, and generally must, be proven with circumstantial evidence. United
States v. Ross, 502 F.3d 521, 530 (6th Cir. 2007). There is no question that Edwards’s posts were
in response to D.B.’s testimony. She repeatedly referred to D.B. as a “snitch” and a “rat.” When
asked in the comments section by a friend who D.B. was,2 Edwards shot back that he “snitched on
[her] brothers” and that she thought he lied about them. She also posted that “His bitch ass needs
some WD40!”
The district court found credible the government witness’s testimony about the increased
risk of harm associated with the label “snitch.” The trier of fact “is free to infer the intent to
retaliate from the natural consequences likely to flow from the defendant’s actions.” United States
v. Stoker, 706 F.3d 643, 646 (5th Cir. 2013). Given the context of the Facebook posts, particularly
the negative comments about D.B. that were generated by the posts, a rational trier of fact could
easily conclude beyond a reasonable doubt that someone who continued to engage in that activity
intended the foreseeable negative consequences. Indeed, the district court found that “there is no
competing or other purpose for which Defendant’s postings were made, other than to retaliate.”
Edwards counters with three arguments. First, Edwards draws attention to the statute’s
lack of definition for “retaliate.” But “when a word is not defined by statute, we normally construe
it in accord with its ordinary or natural meaning.” Smith v. United States, 508 U.S. 223, 228
(1993). Second, Edwards complains everything she communicated online was both accurate and
already public knowledge. Again, this has nothing to do with whether Edwards intended to
retaliate against D.B by disseminating allegedly true and accurate information. Third, Edwards
points out that she did not create any of the content she shared. However, Edwards was convicted

1

The government argues that the issue of intent was forfeited because it was not included with specificity in the Rule
29 motion at trial. While that appears to be true, the record also shows that the government conceded that the intent
element was “what the whole case is about” when discussing the Rule 29 motion orally with the district court judge.
2

In context, the commenter was basically asking Edwards, “Why are you posting this?”

Appendix 23

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 6

(7 of 11)

for using the content to spread awareness of D.B.’s performance, not for creating the content at
hand—which is, again, irrelevant to the question of her intent in sharing the content. Fourth,
Edwards claims that “she never advocated any retaliatory conduct (physical violence or otherwise)
against [D.B.].” However, § 1513(e) does not require that a defendant expressly advocate
retaliation. It rather applies to “[w]hoever knowingly, with intent to retaliate, makes any action
harmful” to a government witness. 18 § U.S.C. § 1513(e). There is evidence upon which a rational
trier-of-fact could find retaliatory intent, and Edwards does nothing to call into question the
sufficiency of that evidence as to the intent element of § 1513(e).
Causation. Edwards concedes D.B. suffered harm from the collective Facebook posts. But
because numerous other people posted (often much worse) things about D.B., Edwards argues, her
posts alone cannot be sufficient evidence to establish that she caused D.B.’s harm. Unfortunately
for Edwards, federal criminal law does not employ a several liability standard. Indeed, the statute
clearly applies to “Whoever . . . takes any action harmful to any person . . . .” 18 U.S.C. § 1513(e).
In this case, there was evidence of close temporal proximity between Edwards’ Facebook posts
and the subsequent harm suffered by D.B., making it possible for a rational trier of fact to
determine that § 1513(e)’s causation element was satisfied. Although D.B. conceded that some
Steubenville residents knew about his cooperation with the government before Edwards posted on
Facebook, he also claimed that “[w]hen the photos got posted, that’s when mostly the drama picked
up.” D.B. testified that he received “a lot of friend requests” from strangers on Facebook after
Edwards posted, which caused him to feel “a little intimidated” and to doubt whether he “could
safely return to Steubenville.” He also feared for the safety of his family, especially given that his
little sister received a threat after Edwards posted on Facebook in May of 2017. In light of these
concerns, D.B. reduced the frequency of his family visits and refrained from living with family

Appendix 24

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 7

(8 of 11)

members in Steubenville. Viewing this testimony in the light most favorable to the government,
there was sufficient evidence for a rational trier of fact to conclude that Edwards caused D.B.’s
harm by sharing the posts on Facebook.
B.
Next, Edwards argues that § 1513(e) is unconstitutionally vague. We review de novo
questions of law. United States v. Hill, 167 F.3d 1055, 1063 (6th Cir. 1999). A statute is
unconstitutionally vague if it “fails to provide people of ordinary intelligence a reasonable
opportunity to understand what conduct it prohibits” or if the statute “authorizes or even
encourages arbitrary and discriminatory enforcement.” Hill v. Colorado, 530 U.S. 703, 732
(2000). Criminal statutes are held to a higher standard than civil statutes. Village of Hoffman
Estates v. Flipside, Hoffman Estates, Inc., 455 U.S. 489, 499 (1982). In criminal statutes, “a
scienter requirement may mitigate a law’s vagueness, especially with respect to the adequacy of
notice to the complainant that his conduct is proscribed.” Id.
As to the notice component of her vagueness challenge, Edwards argues that “an ordinary
person would not likely realize that he is subject to criminal prosecution for everyday activity on
Facebook.” We disagree. The statute prohibits the taking of “any action harmful to any person.”
18 U.S.C. § 1513(e). This is plain, common language. Hill, 530 U.S. at 732. None of the words
used is particularly complex or exclusive to arcane legal texts. An ordinary person can understand
that posting on Facebook falls under “any action.” Indeed, Edwards has no trouble in her brief
paraphrasing even the most advanced word of the statute, “retaliate,” using more common
language: “to get revenge.” Furthermore, the scienter requirements of “knowingly” and “with
intent to retaliate” dramatically narrow the universe of possible offending activity such that an
ordinary person has notice of what conduct is prohibited. See Hill, 530 U.S. at 732; see also

Appendix 25

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 8

(9 of 11)

Village of Hoffman Estates, 455 U.S. at 499. Is the language of the statute potentially sweeping?3
Absolutely. But is it vague such that an ordinary person could not understand what conduct it
prohibits? No.
As to the enforcement component of her vagueness challenge, Edwards argues that “one
need to look no further than this case” for evidence of arbitrary enforcement. Edwards complains
that many others engaged in similar or worse behavior, but she alone was prosecuted—evidence
of arbitrary enforcement, she argues. She also claims she was “[s]ingl[ed] out . . . for prosecution
just because she is related to the McShan brothers”—evidence of discriminatory enforcement, she
argues. However, Edwards unwittingly highlights the flaw in this argument. The government
must prove beyond a reasonable doubt that an offender had an “intent to retaliate” in order to
prevail on a § 1513(e) prosecution. In common parlance, “to retaliate” is to return injury for
perceived injury. It could be difficult for the government to prove that these Facebook postings
by a person unrelated to the McShan brothers and thus unaffected by D.B.’s testimony were done
to “retaliate” against D.B. Not so with Edwards. Family relations have long been recognized in
law to be extensions of the personal domain in all kinds of contexts. See Salman v. United States,
137 S. Ct. 420, 429 (2016) (holding that gifts to family relatives accrue to personal benefit). The
government has broad discretion to choose among its potential cases which to bring for
prosecution. Bordenkircher v. Hayes, 434 U.S. 357, 364 (1978). That the government chose to
bring only its strongest § 1513(e) case is unremarkable, and certainly not evidence of arbitrary
enforcement.

3

Edwards abandoned her First Amendment overbreadth claim on appeal. Nothing in this opinion should be construed
to comment on whether § 1513(e) is overbroad or violative of the First Amendment. That issue was neither brought
nor briefed before us.

Appendix 26

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 9

(10 of 11)

C.
Finally, Edwards argues that the government selectively prosecuted her. A claim of
selective or vindictive prosecution must be made on a motion before trial. Fed. R. Crim. P.
12(b)(3)(A)(iv). Here, it was not. Because this claim is first raised on appeal, we review for plain
error. United States v. Soto, 794 F.3d 635, 654–55 (6th Cir. 2015) (holding that untimely 12(b)(3)
motions raised for the first time on appeal are subject to plain error review). “Plain error exists
where there is (1) error (2) that was obvious or clear, (3) that affected [the] defendant’s substantial
rights and (4) that affected the fairness, integrity, or public reputation of the judicial proceedings.”
United States v. Donadeo, 910 F.3d 886, 893 (6th Cir. 2018) (internal quotation marks and
citations omitted). “Accordingly, plain error is a standard that is extremely deferential to the
district court, and it should be found sparingly, only in exceptional circumstances, and solely to
avoid a miscarriage of justice.” Id. (internal quotation marks omitted).
“A selective-prosecution claim is not a defense on the merits to the criminal charge itself,
but an independent assertion that the prosecutor has brought the charge for reasons forbidden by
the Constitution.” United States v. Armstrong, 517 U.S. 456, 463 (1996). Among those forbidden
reasons are a defendant’s “race, religion, or the desire to prevent the exercise of [the defendant’s]
constitutional rights.” United States v. Hazel, 696 F.2d 473, 474 (6th Cir. 1983). In order to
succeed on a selective-prosecution claim, the defendant must “present clear evidence” that (1) the
government had a discriminatory intent, and (2) that the prosecutorial policy had a discriminatory
effect. Armstrong, 517 U.S. at 465 (internal quotation marks omitted). See also United States v.
Jones, 159 F.3d 969, 976 (6th Cir. 1998).
Edwards claims that her exercise of her First Amendment rights on Facebook was the
motivation for her prosecution, and because she was the only person among many other people

Appendix 27

Case: 18-3541

Document: 27-2

Filed: 08/16/2019

Page: 10

(11 of 11)

engaged in “similar or worse activity” to have been prosecuted, she must have been selectively
prosecuted. Edwards misunderstands the nature of a proper selective-prosecution claim.
Selective-prosecution occurs when impermissible considerations motivate the prosecution
of an individual but otherwise “similarly situated individuals” who could have been charged “were
not similarly prosecuted.”

Jones, 159 F.3d at 977.

Specifically, those impermissible

considerations must be unrelated to the criminal acts for which the person was prosecuted. A valid
selective-prosecution claim might arise, for example, if a group of individuals conspired to rob a
bank but only the racial minority among them was prosecuted; or if a number of protestors were
trespassing on private property but the only protestor who was prosecuted was known to be a vocal
critic of the local police department.
With Edwards, there is no such dynamic. Of course, by virtue of her prosecution, Edwards
was selected for it. And yes, as the government agrees, it prosecuted her because of her Facebook
posts. But her Facebooks posts were not the “motivation” for her being prosecuted for an
otherwise unrelated crime—her Facebook posts were the crime. It is hardly remarkable that in
response to the flurry of online activity endangering D.B., the government indicted only the person
against whom the government had the strongest case. Furthermore, Edwards makes no claim that
the government’s selection of her was in bad faith, nor does she produce any “clear evidence” that
would have satisfied her burden had she brought a timely 12(b)(3) motion, let alone one we review
for plain error.
III.
For the foregoing reasons, we AFFIRM the judgment of the district court.

Appendix 28

18-3541
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JOY EDWARDS,
Defendant-Appellant
_________________________________________
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
Hon. Edmund A. Sargus
2:17-cr-00170-1
BRIEF OF DEFENDANT-APPELLANT JOY EDWARDS
Stephen T. Wolfe (OH, 0083894)
Attorney for Defendant-Appellant
Wolfe Law Group, LLC
1350 W. 5th Ave., Suite 330
Columbus, OH 43212
Phone: (614) 725-5440
Fax: (614) 686-4390
Email: swolfe@wvwlegal.com

Appendix 29

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

STATEMENT IN SUPPORT OF ORAL ARGUMENT

1

JURISDICTIONAL STATEMENT

1

STATEMENT OF THE ISSUE

1

STATEMENT OF THE CASE

1

SUMMARY OF THE ARGUMENT

4

ARGUMENT

5

I.

There was insufficient evidence to sustain Ms. Edwards’ conviction for
retaliation against a witness under 18 U.S.C. §1513(e)
5

II.

The district court improperly denied Ms. Edwards’ motion to dismiss
because 18 U.S.C. §1513(e) is vague and overbroad
7

III.

The Government’s decision to selectively prosecute Ms. Edwards was
based upon an unjustifiable standard
10

CONCLUSION

12

CERTIFICATE OF COMPLIANCE

13

CERTIFICATE OF SERVICE

14

ADDENDUM

15

Appendix 30

TABLE OF AUTHORITIES
Cases
Arlington Heights v. Metropolitan Housing Development Corp., 429 U.S. 252 (1977)
............................................................................................................................................. 10
Bordenkircher v. Hayes, 434 U.S. 357 (1978) ................................................................... 10
Chaplinsky v. New Hampshire, 315 U.S. 568 (1942) ....................................................... 11
Kolender v. Lawson, 461 U.S. 352 (1983) ........................................................................... 8
Oyler v. Boles, 368 U.S. 448 (1962) ................................................................................... 10
Personnel Administrator of Massachusetts v. Feeney, 442 U.S. 256 (1979) ................. 10
Smith v. Goguen, 415 U.S. 566 (1974) ................................................................................ 8
United States v. Batchelder, 442 U.S. 114 (1979) ............................................................. 10
United States v. Camick, 796 F.3d 1206 (10th Cir. 2015) ................................................. 5
United States v. Canan, 48 F.3d 954 (6th Cir. 1995) .......................................................... 5
United States v. Goodwin, 457 U.S. 368 (1982) ............................................................... 10
United States v. Montgomery, 980 F.2d 388 (6th Cir. 1992) ............................................ 5
United States v. National Dairy Products Corp., 372 U.S. 29 (1963) .............................. 7
Washington v. Davis, 426 U.S. 229 (1976). ....................................................................... 10
Wayte v. United States, 470 U.S. 598 (1985) ..................................................................... 10
Statutes
18 U.S.C. §1513.........................................................................................................5, 8, 9, 12

Appendix 31

Rules
Fed.R.Crim.P. 29 .................................................................................................................... 5
Constitutional Provisions
U.S. Const. Am. 1 ................................................................................................................. 10

Appendix 32

STATEMENT IN SUPPORT OF ORAL ARGUMENT
Oral argument is requested. Edwards requests oral argument to address any
questions the panel of the United States Court of Appeals for the Sixth Circuit may
have regarding the facts and applicable law.

STATEMENT OF JURISDICITON
The judgment of the District Court for the Southern District of Ohio was
entered on May 25, 2018. Appellant gave timely notice of appeal on June 6, 2018. The
district court’s subject matter jurisdiction was based on Edwards’ retaliation against a
witness under 18 U.S.C. §1513(e). The jurisdiction of this Court to hear Edwards’
appeal from the final decision of the district court is invoked under 28 U.S.C. §1291.

STATEMENT OF THE ISSUES
Whether there was sufficient evidence to sustain Ms. Edwards’ conviction for
retaliation against a witness under 18 U.S.C. §1513(e).
Whether the district court erred in overruling Ms. Edwards’ motion to dismiss
based on First Amendment grounds.

STATEMENT OF THE CASE
On June 14, 2017, Defendant-Appellant Joy Edwards (“Edwards”) was charged
with one count of retaliation against a witness under 18 U.S.C. §1513(e) in a

Appendix 33

complaint. (R.1, Complaint). At a preliminary hearing on July 10, 2017, Edwards
raised a First Amendment defense to her alleged violation and the parties were
ordered to brief the issue, which was done shortly thereafter. (R.8 Order, R.9,
Response, R.10, Response). Subsequently, Edwards was indicted for the same charge
on August 3, 2017. (R.12, Indictment).
Edwards then filed a motion to dismiss, reiterating and incorporating all issues,
defenses, and arguments, both legal and factual, raised in her previous brief. (R.30,
Motion). The government filed a response, reincorporating its previous brief, as well.
(R.32, Response). A hearing was held on December 1, 2017, and the motion and it
was denied. (R.36, Opinion and Order). Right to a jury trial was waived and the case
was tried to the Court on December 11, 2018. (R.35, Waiver). Edwards moved for
acquittal pursuant to Fed.R.Crim.P.29(c). (Page ID # 350). Ruling on Edwards’ Rule
29 motion was deferred until the same time as a determination of guilt. (Page ID #
351). The district court found Edwards guilty of the sole count on January 17, 2018.
(R.40, Opinion and Order).
On May 25, 2018, Edwards was sentenced to three months incarceration, three
months at a halfway house, three months home confinement, and three years of
supervised release, all stayed pending appeal. (R.50, Judgment). Notice of appeal was
timely filed on June 6, 2018. (R.54, Notice of Appeal).
Edwards is the biological sister of David and Fred McShan, against whom the
victim, “D.B.”, was working as a confidential informant. (Page ID # 317-319). D.B.

Appendix 34

started working as a confidential informant in 2015. (Page ID # 334). In February of
2016, D.B. posted on his personal Facebook page that he was going to “shock the
Valley.” (Page ID # 330). D.B. testified against the McShan brothers in March of
2017. (Page ID # 319). When he testified in March of 2017, D.B. did so in an open
courtroom in front of a handful of people, including a number of people from
Steubenville. (Page ID #327-328). Members of the public in a courtroom are typically
not admonished not to share information regarding a confidential informant’s
testimony when they leave the courtroom. (Page ID # 348).
A few months later, D.B. became aware of posts on Edwards’ personal
Facebook page with D.B.’s picture and disparaging language referencing his role as a
“snitch.” (Page ID # 319-320, 324). Some of the images were created and initially
shared by someone other than Edwards and merely re-shared or re-posted by
Edwards. (Page ID # 313). It is unclear whether Edwards created any of the images.
(Page ID # 311). The posts did not contain any untrue information, D.B.’s name,
address, place of employment, any personal information, or any threat or solicitation
of harm. (Page ID # 310-311). Other people posted photos of D.B. and disparaging
comments, but none were investigated. (Page ID # 311-312). Nobody indicated on
the Facebook posts that they were unaware of D.B.’s testimony prior to the Facebook
posts, implying that they were previously aware. (Page ID # 313).
D.B. indicated that all of his family is in Steubenville, and that he has not felt
safe to return there since the Facebook posts. (Page ID # 321). D.B. had concerns

Appendix 35

about the safety of his family since before the Facebook posts. (Page ID # 323). D.B.
had concerns that people knew of his testimony prior to the Facebook posts. (Page
ID # 328, 331). D.B. claims that his brother was killed by Edwards’ nephew in
January of 2013. (Page ID # 330-331).

SUMMARY OF THE ARGUMENT
1. The district court improperly found that the government had proven the
causation element of the offense. There was not sufficient evidence to show that Ms.
Edwards re-posting, commenting upon, and liking other people’s Facebook posts was
the cause of any claimed harm suffered by D.B.
2. §18 U.S.C. 1513(e) is vague and overbroad because an ordinary person would
not realize that re-posting and liking other people’s Facebook posts could be
retaliatory conduct subject to criminal prosecution. The government’s decision to
prosecute only Ms. Edwards demonstrates that the statute invites arbitrary and
discriminatory enforcement.
3. The government chose to selectively prosecute Ms. Edwards based upon her
decision to exercise her First Amendment right to free speech by re-posting,
commenting upon, and liking other people’s Facebook posts.

Appendix 36

ARGUMENT
1. There was insufficient evidence to sustain Ms. Edwards’ conviction for
retaliation against a witness under 18 U.S.C. §1513(e)
A denial of a Fed.R.Crim.P. 29(c) motion for judgment of acquittal is reviewed
de novo. See United States v. Canan, 48 F.3d 954, 962 (6th Cir. 1995). However, the
decision of the district court must be affirmed if the evidence, viewed in a light most
favorable to the government, “would allow a rational trier of fact to find the
defendant guilty beyond a reasonable doubt.” Id. (citing United States v. Montgomery,
980 F.2d 388, 393 (6th Cir. 1992)).
18 U.S.C. §1513(e) prohibits knowingly, with the intent to retaliate, taking any
action harmful to any person, including interference with the lawful employment or
livelihood of any person, for providing a law enforcement officer any truthful
information relating to the commission or possible commission of any Federal
offense. The elements of the offense are then: (1) knowingly took an action with
intent to retaliate; (2) the action harmed the victim (emotionally, economically, or
otherwise); and (3) the retaliation was motivated by the victim’s cooperation with law
enforcement. See United States v. Camick, 796 F.3d 1206, 1220 (10th Cir. 2015).
Two months after D.B.’s testimony in open court, Ms. Edwards re-posted,
liked, and commented upon various Facebook posts originally created or shared by
other people. This included various times at which both Ms. Edwards and others
called D.B. a “snitch” and other derogatory terms. At no point did Ms. Edwards deny

Appendix 37

that she made these comments, and so there is no debate that she knowingly took an
action. Further, D.B. testified that he was afraid to go back to Steubenville and that
his inability to live at home had cost him money, so he did suffer harm. The more
difficult questions here are whether Ms. Edwards actions were done with an intent to
retaliate and whether her actions were the cause of D.B.’s harm.
The first of these questions, whether Ms. Edwards actions were done with an
intent to retaliate, poses difficulty simply because “retaliate” is not defined anywhere
within the statute. Merriam-Webster defines it as either “to repay in kind” as a
transitive verb or “to return like for like; especially to get revenge” as an intransitive
verb. Retaliate, Merriam-Webster, 2018. Based upon the lack of a direct object to
“retaliate” in the statute, it must be assumed that it is an intransitive verb, so “to get
revenge.”
If Ms. Edwards’ ultimate goal in going onto Facebook was to get revenge, it
seems unlikely that this would be her course of action. First, she did not create the
content, she merely shared or commented upon other people’s posts. Second, none of
the information shared was untrue – D.B. had testified and thus was a “snitch.” Third,
she never advocated any retaliatory conduct (physical violence or otherwise) against
him. Finally, she never shared anything that was not already public knowledge. D.B.
had testified more than two months prior in open court. He was not behind a screen,
nor was the court sealed. Anybody that wanted to could have seen him testify. It is

Appendix 38

not clear how the district court reached the conclusion that she had an intent to
retaliate based upon these few items.
Further and even more troubling, there is absolutely no way to determine that
it was Ms. Edwards’ conduct that caused harm to D.B. He testified that he had
problems with the Edwards family dating back to at least January, 2013, over four
years prior to his testimony and two years before he started working as a confidential
informant. His testimony was given two months before the Facebook posts, and he
said not only that he had issues prior to the Facebook posts, but that other people in
the community knew of his testimony prior to the Facebook posts. Lastly, the posts
were not created by Ms. Edwards. It is impossible to say that it was Ms. Edwards’
actions that caused the claimed harm because countless other people had been doing
the same or worse to him for a period of time before she became involved.
The government proved neither that Ms. Edwards’ intent was to retaliate nor
that her actions were the cause of any harm to D.B., and thus her conviction should
be reversed and her motion for acquittal granted.
2. The district court improperly denied Ms. Edwards’ motion to dismiss
because 18 U.S.C. §1513(e) is vague and overbroad
The doctrine of vagueness “… is the basis for striking down legislation which
contains insufficient warning of which conduct is illegal.” United States v. National
Dairy Products Corp., 372 U.S. 29, 32-33 (1963). “The void-for-vagueness doctrine
requires that a penal statute define the criminal offense with sufficient definiteness

Appendix 39

that ordinary people can understand what conduct is prohibited and in a manner that
does not encourage arbitrary and discriminatory enforcement.” Kolender v. Lawson,
461 U.S. 352, 357 (1983).
“A statute challenged for vagueness must be scrutinized to determine whether
it provides both fair notice to the public that a certain conduct is proscribed and
minimal guidelines to aid officials in the enforcement of that proscription.” Kolender,
461 U.S. at 357. Notably, while “the [vagueness] doctrine focuses both on actual
notice to citizens and arbitrary enforcement,” the United States Supreme Court has
explained that “the more important aspect of the doctrine ‘is … the requirement that
a legislature establish minimal guidelines to govern law enforcement.” Id., 461 U.S. at
357-8 (quoting Smith v. Goguen, 415 U.S. 566, 574 (1974)).
“Where the legislature fails to provide such minimal guidelines, a criminal
statute may permit ‘a standardless sweep [that] allows policemen, prosecutors, and
juries to pursue their personal predilections.’” Kolender, 461 U.S. at 358 (quoting
Smith, 451 U.S. at 575). The failure of a statute to provide guidelines for enforcement
sufficient to thwart the risk of arbitrary and discriminatory enforcement is a sufficient
basis for invalidating the law under the void-for-vagueness doctrine. Kolender, 461
U.S. at 359.
The legislation that led to the enactment of §18 U.S.C. 1513(e) was part of the
Sarbanes-Oxley Act, which was drafted to protect employees who reported fraud and
were the subject of retaliation for corporate whistle-blowing. While it was

Appendix 40

incorporated into the code and has legitimate criminal application, this was not its
intended usage. Had Ms. Edwards outed D.B. as a confidential informant prior to his
testimony, thus reducing his likelihood at the testimony of her brothers’ trial, it would
be a more obvious outcome. Likewise, had she published untrue statements that
caused him harm, her prosecution would be more expected. In this situation, though,
an ordinary person would not likely realize that he is subject to criminal prosecution
for everyday activity on Facebook.
Further, if the true test for vagueness is whether it invites arbitrary
enforcement, one need to look no further than this case for evidence of the statute’s
failings. Once again, Ms. Edwards did not create the content, nor was she the only
one sharing it. The government was aware of this, yet readily admitted that nobody
else was investigated. The government was unsure of who created some of the
content, only knowing that it was not Ms. Edwards, and made no attempt to
investigate. On other content, they knew exactly who created it, but no other arrests
were made; no other individuals prosecuted for the same or similar offenses. Singling
out Ms. Edwards for prosecution just because she is related to the McShan brothers is
a perfect example of the prosecutorial predilections that the are the hallmark of an
overly vague statute.
§18 U.S.C. 1513(e) is vague on two levels: first, there is insufficient notice of
what constitutes a crime such that an ordinary person would know what conduct is

Appendix 41

illegal; second, it invites arbitrary enforcement. For these reasons, Ms. Edwards’
motion to dismiss should have been granted.
3. The Government’s decision to selectively prosecute Ms. Edwards was
based upon an unjustifiable standard.
“[A]lthough prosecutorial discretion is broad, it is not ‘unfettered.’ Selectivity in
the enforcement of criminal laws is … subject to constitutional constraints.” Wayte v.
United States, 470 U.S. 598, 608 (1985) (quoting United States v. Batchelder, 442 U.S.
114, 125 (1979)). “In particular, the decision to prosecute may not be ‘deliberately
based upon an unjustifiable standard such as race, religion, or other arbitrary
classification.’” Wayte, 470 U.S. at 608 (citing Bordenkircher v. Hayes, 434 U.S. 357,
364 (1978)). This includes the exercise of protected statutory and constitutional rights.
Wayte, 470 U.S. at 608 (citing United States v. Goodwin, 457 U.S. 368, 372 (1982).
Selective prosecution cases are judged according to ordinary equal protection
standards. See Oyler v. Boles, 368 U.S. 448 (1962). This standard requires that the
petitioner show both that passive enforcement system had a discriminatory effect and
that it was motivated by a discriminatory purpose. See Personnel Administrator of
Massachusetts v. Feeney, 442 U.S. 256 (1979); Arlington Heights v. Metropolitan
Housing Development Corp., 429 U.S. 252 (1977); Washington v. Davis, 426 U.S. 229
(1976).
“Congress shall make no law … abridging the freedom of speech, or of the
press…” U.S. Const. Am. 1. However, the right of free speech is not absolute; and,

Appendix 42

some words “by their very utterance” cause injury and incite an immediate breach of
peace. See Chaplinsky v. New Hampshire, 315 U.S. 568, 571 (1942).
It is Ms. Edwards’ contention that she has been selectively prosecuted for the
exercise of her First Amendment right to free speech. The district court agreed with
the government’s argument that use of the word “snitch” is an example of the
unprotected speech contemplated in Chaplinsky, Ms. Edwards would propose that it
is not that cut and dry.
As discussed in her last assignment of error, the issue of timing is particularly
important here. All of the posts were from two months after the testimony, at which
point many people already knew of D.B.’s cooperation with the government. Calling
him a “snitch” at that point is not likely to cause any further injury. Again, had she
called him a “snitch” prior to his testimony, or even after his testimony but before it
became public knowledge, the outcome might have been different. Here, that was not
the case, though.
Much like the timing issue, Ms. Edwards argument that she has been selectively
prosecuted stems from many of the same issues for which she points out that the
statute is overly vague. Multiple other people engaged in similar or worse activity, and
yet nobody was prosecuted. Ms. Edwards was prosecuted solely for her exercise of
her First Amendment right to free speech, which would not have been curtailed by
the word “snitch” based on the circumstances surrounding the situation.

Appendix 43

CONCLUSION
Accordingly, Edwards requests that this Court find that the government did
not present sufficient evidence to sustain a conviction and order that Edwards’
motion for acquittal be granted. Further, Edwards requests that this Court find that
the district court erred in denying her Motion to Dismiss, as 18 U.S.C. §1315(e) is
vague and overly broad. Finally, Edwards requests that this Court find that the
government engaged in impermissible, selective prosecution in charging her with this
offense, as its vindictive motivation was based upon her exercising her constitutional
right to free speech and the fact that she was related to David and Fred McShan.

Respectfully submitted,
/s/ Stephen T. Wolfe
Stephen T. Wolfe (OH, 0083894)
Attorney for Defendant-Appellant
Wolfe Law Group, LLC
1350 W. 5th Ave., Suite 330
Columbus, OH 43212
Phone: (614) 725-5440
Fax: (614) 686-4390
Email: swolfe@wvwlegal.com

Appendix 44

No. 18-3541
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JOY EDWARDS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

CERTIFICATE OF COPMLIANCE
The undersigned counsel of record for defendant-appellant, Joy Edwards,
certifies pursuant to Fed.R.App.P. 32(a)(7)(C) that the Brief of Defendant-Appellant
complies with the type-volume limitation of Fed.R.App.P.32(a)(7)(B) because this
Brief contains 2,777 words and 246 lines. In addition, this Brief complies with the
typeface requirements of Fed.R.App.P. 32(a)(5) and the type style requirements of
Fed.R.App.P.32(a)(6) because this Brief has been prepared in a proportionally spaced
typeface using Microsoft Word 2016, Garamond font in 14 point size, with footnotes
in Garamond font 14 point size.
By:

/s/ Stephen T. Wolfe
Attorney for Defendant-Appellant
Joy Edwards

Appendix 45

No. 18-3541
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JOY EDWARDS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

CERTIFICATE OF SERVICE
I hereby certify that on the 4th day of September, 2018, I electronically filed the
foregoing Brief of Defendant-Appellant Joy Edwards with the Clerk of Court using
the CM/ECF system, which will send notification of the filing to the following
attorney of record: Alexis Zouhary, United States Attorney’s Office, 221 East Fourth
Street, Suite 400, Cincinnati, OH 45202, alexis.zouhary@usdoj.gov.
By:

/s/ Stephen T. Wolfe
Attorney for Defendant-Appellant
Joy Edwards

Appendix 46

ADDENDUM
DESIGNATION OF RELEVANT DISTRICT COURT DOCUMENTS
1. Record 1, Complaint, filed by district court on 6/14/17
2. Record 8, Order, filed by district court on 7/13/17
3. Record 9, Response, filed by United States of America on 7/16/17
4. Record 10, Response, filed by Joy Edwards on 7/18/17
5. Record 12, Indictment, filed by district court on 8/3/17
6. Record 30, Motion to dismiss, filed by Joy Edwards on 11/13/17
7. Record 32, Response, filed by United States of America on 11/14/17
8. Record 35, Waiver of jury trial, filed by Joy Edwards on 12/1/17
9. Record 36, Opinion and Order denying motion to dismiss, filed by district
court on 12/1/17
10. Record 40, Opinion and Order finding Defendant guilty, filed by district court
on 1/17/18
11. Record 46, Sentencing Memorandum, filed by Joy Edwards on 5/10/18
12. Record 47, Sentencing Memorandum, filed by United States of America on
5/11/18
13. Record 49, Opinion and Order granting Defendant’s motion to continue
release on bond pending appeal, filed by district court on 5/25/18
14. Record 50, Judgment, filed by district court on 5/25/18
15. Record 52, Amended Judgment, filed by district court on 6/4/18

Appendix 47

16. Record 54, Notice of Appeal, filed by Joy Edwards on 6/6/18
17. Record 58, Transcript of Proceedings of Sentencing, filed by district court on
7/20/18
18. Record 59, Transcript of Proceedings of Verdict, filed by district court on
7/20/18
19. Record 60, Transcript of Proceedings of Motion Hearing, filed by district court
on 7/20/18
20. Record 61, Transcript of Proceedings of Bench Trial, filed by district court on
7/20/18

Appendix 48

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 1 of 9 PAGEID #: 155

Appendix 49

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 2 of 9 PAGEID #: 156

Appendix 50

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 3 of 9 PAGEID #: 157

Appendix 51

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 4 of 9 PAGEID #: 158

Appendix 52

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 5 of 9 PAGEID #: 159

Appendix 53

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 6 of 9 PAGEID #: 160

Appendix 54

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 7 of 9 PAGEID #: 161

Appendix 55

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 8 of 9 PAGEID #: 162

Appendix 56

Case: 2:17-cr-00170-EAS-MRM Doc #: 36 Filed: 12/07/17 Page: 9 of 9 PAGEID #: 163

Appendix 57

